AUDIT OF OCWEN FEDERAL BANK’S SERVICING OF RTC
            MORTGAGE TRUST 1994-S2

                 Audit Report No. 99-010
                   February 12, 1999




         Material has been redacted from this
         document to protect personal privacy,
         confidential or privileged information.


                OFFICE OF AUDITS

         OFFICE OF INSPECTOR GENERAL
                               TABLE OF CONTENTS


BACKGROUND                                                                         3

OBJECTIVE, SCOPE, AND METHODOLOGY                                                  4

RESULTS OF AUDIT                                                                   6

OCWEN’S MONTHLY REPORTS, ACCOUNTING SYSTEM, AND SOURCE
DOCUMENTS DID NOT RECONCILE                                                        6

OCWEN DID NOT PROVIDE ADEQUATE SUPPORTING DOCUMENTATION
FOR TRUST RECEIPTS, DISBURSEMENTS, AND ACCOUNTING ENTRIES                          7

       Inadequate Support for Trust Receipts                                       8

       Inadequate Support for Trust Disbursements                                  8

       Inadequate Support for Trust Accounting Entries                             9

OCWEN MADE UNALLOWABLE DISBURSEMENTS FOR LEGAL AND
ASSET-SERVICING FEES                                                              10

OCWEN DID NOT COMPLY WITH TRUST REPORTING REQUIREMENTS                            10

       Annual Accountant’s Reports Were Not Prepared                              11

       Partnership and Servicer Certificates Were Delinquent and Incomplete       12

[material redacted]

CONCLUSIONS AND RECOMMENDATIONS                                                   14

CORPORATION COMMENTS AND OIG EVALUATION                                           15


APPENDIXES

Appendix I:   Entities Involved in Owning, Managing, and Servicing Trust Assets   16

Appendix II: Corporation Comments                                                 18

Appendix III: Management Responses to Recommendations                             21
TABLES

Table 1: Receipts and Disbursements Recorded and Amounts Reviewed    5

Table 2: Trust Disbursements Not Adequately Supported                9

Table 3: Annual Partnership and Servicer Certificates               12


FIGURE

Figure 1: Major Entities Involved in RTC Mortgage Trust 1994-S2     17




                                               2
Federal Deposit Insurance Corporation                                                                         Office of Audits
Washington, D.C. 20434                                                                           Office of Inspector General




   DATE:            February 12, 1999

   TO:              Douglas G. Stinchcum
                    Assistant Director, Asset Management
                    Division of Resolutions and Receiverships




   FROM:            Sharon M. Smith
                    Director, Field Audit Operations

   SUBJECT: Audit of Ocwen Federal Bank’s Servicing of RTC Mortgage Trust 1994-S2 (Audit
            Report No. 99-010)

   This report presents the results of an audit of Ocwen Federal Bank’s1 servicing of the Resolution
   Trust Corporation’s (RTC) Mortgage Trust 1994-S2 (the Trust).2 The Federal Deposit
   Insurance Corporation’s (FDIC) Division of Resolutions and Receiverships (DRR) requested the
   Office of Inspector General (OIG) to conduct an audit of Ocwen’s servicing of the Trust’s
   transactions. DRR officials requested the audit because of concerns about Ocwen’s management
   abilities, systems, internal communications, and failure to provide required reports.


   BACKGROUND

   The Trust was formed on August 10, 1994 to acquire and liquidate 88 assets. The RTC
   transferred the assets to the Trust under a deposit-trust agreement, and Wilmington Trust
   Company served as the trustee. The Trust was capitalized initially through the issuance of two
   classes of equity certificates with gross proceeds of $29.6 million and the placement of a
   $30.9 million bond secured by the assets of the Trust.

   Unlike a typical contract where the FDIC, as successor to the RTC, engaged a third party to
   service assets owned by the Corporation, in this case the FDIC held a class B certificate. The
   FDIC’s class B interest in this transaction represented 51 percent of the equity and conveyed the
   rights of a limited partner’s interest in the Trust. The 1994-S-CA Investors Limited Partnership
   (the Partnership) held the class A certificate, which represented the remaining 49-percent share of
   the equity.


   1
    At the time that Ocwen Federal Bank became a party to the Trust, its name was Berkeley Federal Bank & Trust, West
   Palm Beach, Florida.
   2
    As provided in the RTC Completion Act of 1993, the RTC went out of existence on December 31, 1995, and the
   Federal Deposit Insurance Corporation took over its functions on January 1, 1996.


                                                            3
Under the terms of the deposit-trust agreement, the day-to-day management decisions regarding
trust operations were solely the responsibility of the class A certificateholder, which acted in the
role of a general partner. This structure provided certain benefits to the FDIC, including
insulation from lender liability claims against the Corporation. The Trust, rather than the FDIC,
owned the assets. The agreements that created and governed the Trust prohibited the class B
certificateholder from providing direction to the Trust, the servicer, or the class A
certificateholder on day-to-day management decisions, operating policies and procedures, or
liquidation decisions on trust assets.

Trust assets consisted primarily of nonperforming loans and owned real estate. The Partnership
hired one of its partners, Ocwen, to service the Trust’s assets. Ocwen and the Partnership, in
turn, signed a subservicing agreement with Carbon Mesa Management and CCS Management.
Under the subservicing agreement, Ocwen was responsible for accounting for the Trust’s
operations, and providing reports and certificates required by the various agreements, preparing
all tax returns, maintaining the books and records, monitoring compliance, and managing
26 assets. Carbon Mesa Management was responsible for performing the asset management
function3 on the remaining 62 assets, and CCS Management was responsible for providing
analytical and marketing services, cash flow projections, and derived investment values. In
addition, the subservicers could contract with independent contractors to perform any portion of
their respective duties. Carbon Mesa Management contracted with at least 10 property managers
to manage assets. The entities involved in owning, managing, and servicing the Trust’s assets are
presented in appendix I.

In July 1995, the RTC engaged AEW Capital Management, as successor to another third-party
contractor, to oversee the RTC’s limited partnership/class B certificateholder interest in the Trust.
 Generally, AEW was to monitor the actions of the servicer and ensure its compliance.


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether Ocwen accurately accounted for and
reported trust receipts and claimed only allowable trust disbursements. To accomplish the
objective, we interviewed personnel from (1) Ocwen in West Palm Beach, Florida; (2) Carbon
Mesa Management in Santa Monica, California; (3) Carrick and Associates4 in Encino, California;
and (4) AEW in Boston, Massachusetts. We also reviewed the deposit-trust, servicing,
partnership, partnership-management, and subservicing agreements.

Table 1 shows the total receipts and disbursements that Ocwen recorded through October 31,
1997, and the amounts that we reviewed.



3
 The asset management function included preparing the individual asset business plan, carrying out the steps and
procedures set for that plan, preparing updates to the plan, and preparing resolution memoranda.
4
    Carrick and Associates is one of the property managers subcontracted by Carbon Mesa Management.


                                                           4
Table 1: Trust Receipts and Disbursements Recorded and Amounts Reviewed
           Receipts/Disbursements             Recorded              Reviewed
Initial setup deposits                       $ 3,517,592           $ 3,517,592
                                                         a
Liquidation proceeds                          56,951,905            15,010,355
                                                         b
Other receipts                                12,966,103             1,472,947
     Total Receipts                          $73,435,600           $20,000,894
                                                         c
Estimated cash disbursements                 $ 8,005,347           $ 2,330,406
Bond payments—principal                       30,909,030            30,909,030
Bond payments—interest                         2,728,372             2,728,372
Equity distributions                          30,675,256            30,675,256
Servicing fees                                 1,054,415             1,054,415
     Total Disbursements                     $73,372,420           $67,697,479
a
 Total liquidation proceeds from Ocwen’s Loan Servicing and Management System (LSAMS) principal and interest
payoff accounts.
b
    Total cash receipts from Ocwen’s Cash Flow Summary of $69,918,008 minus the liquidation proceeds of $56,951,905.
c
    Total cash payments from Ocwen’s Cash Flow Summary.

Source: OIG analysis of Ocwen’s monthly reports, LSAMS, and the Cash Flow Summary.

We judgmentally selected 14 assets with large and small loan balances and high volumes of receipt
and disbursement activity. Ocwen had sold 13 of the 14 assets sampled at the time our audit
ended. To determine whether Ocwen accurately accounted for real estate sales proceeds, we
traced the proceeds from the closing statements to Ocwen’s Loan Servicing Accounting and
Management System (LSAMS) for 12 of the 13 sold assets. Ocwen did not provide a closing
statement for the remaining asset in our sample that had been sold. For other receipts (for
example, rental receipts), we traced amounts recorded on Carbon Mesa Management’s receipt log
to Ocwen’s LSAMS and monthly reports for 9 of the 14 sampled assets. The receipt log
contained no postings for the remaining five assets. For the unsold asset, we also compared the
recorded rental receipts to the tenant leases to determine whether Carbon Mesa Management
received the correct amount. Tenant leases were not available for the sold assets.

To determine whether Ocwen claimed only allowable disbursements, we judgmentally selected
disbursement transactions from Ocwen’s LSAMS transaction history inquiries and fee billing
detail for the 14 sampled assets. We initially selected 94 large and small disbursements totaling
$640,821. However, because Ocwen did not provide either original invoices or checks for over
50 percent of the initial disbursement sample, we expanded our sample to include disbursement
transactions for 44 assets. We selected the 30 additional assets from those with high volumes of
disbursement activity and reviewed 106 disbursement transactions totaling $1,689,585, which
represented all disbursement transactions over $4,999.

In total, we selected 200 disbursement transactions from August 1994 to September 1997 totaling
$2,330,406 for the 44 assets. We requested canceled checks, invoices, and other supporting
documentation for the 200 disbursement transactions to determine whether the disbursements
were adequately supported and allowable under the terms of the deposit-trust and servicing


                                                          5
agreements. We also selected for review 10 adjusting accounting entries that Ocwen made, of
which 1 reduced trust receipts and the remaining 9 increased trust disbursements.

We did not evaluate Ocwen’s system of internal controls. Instead, we relied on substantive
testing to determine whether Ocwen accurately reported trust receipts and claimed only allowed
trust disbursements. [material redacted] The OIG conducted the audit from November 1997
through November 1998 in accordance with generally accepted government auditing standards.

We met with Ocwen officials on August 12, 1998 to present the results of our audit. Subsequent
to that meeting, on August 31, 1998, Ocwen provided written comments and additional
documentation to address our findings. Ocwen’s comments and our analysis of the additional
documentation provided are incorporated in this report, as appropriate.


RESULTS OF AUDIT

Ocwen’s monthly reports contained discrepancies and did not reconcile with its accounting system
and source documents. For example, the beginning balance for a particular month often did not
agree with the ending balance for the prior month. Moreover, we could not trace Ocwen’s
reports of receipts and disbursements to source documents for the initial 24 months of trust
operations, and Ocwen did not comply with its reporting requirements. Further, we could not
determine whether Ocwen accurately accounted for and reported receipts and disbursements of
the Trust. We questioned $957,108 in unallowable and unsupported trust transactions that
included $31,338 in unallowable legal and servicing fees, $8,150 of unrecorded receipts, and
$917,620 of unsupported disbursements and accounting adjustments.

Based on our audit, the OIG recommended that the FDIC’s Assistant Director, Asset
Management, DRR, disallow $957,108 in unsupported or unallowable trust transactions.


OCWEN’S MONTHLY REPORTS, ACCOUNTING SYSTEM, AND SOURCE
DOCUMENTS DID NOT RECONCILE

Ocwen’s monthly collection account activity reports—sent to the trustee, class A
certificateholder, and FDIC—contained discrepancies and did not reconcile to Ocwen’s
accounting system or source documents. Specifically, the beginning balances on the monthly
demand deposit account activity schedules often did not reconcile with ending balances from the
preceding months’ schedules. Moreover, we could not reconcile Ocwen’s reports of receipts and
disbursements for the initial 24 months to source documents. Accordingly, we could not
determine whether Ocwen accurately accounted for and reported receipts and disbursements of
the Trust.




                                               6
Ocwen also provided monthly demand deposit account (DDA) collection activity schedules,
which listed total daily deposits and withdrawals regardless of receipt or disbursement category,
with inconsistent ending and beginning balances from one month to the next. For example, the
ending balance on July 31, 1996 was $4,364,359, while the opening balance on August 1, 1996
was $4,402,918, an unexplained increase of $38,559. Similarly, the ending balance on August 31,
1996 was $1,610,785, while the opening balance on September 1, 1996 was $1,581,720, an
unexplained decrease of $29,065.

In addition, Ocwen’s monthly reports contained mostly summary receipt and disbursement
information from the inception of the Trust through July 1996 that we could not reconcile to the
source documents. For example, the monthly report for November 1994 included only a
summary-level statement of cash receipts from operations, collections, deferred maintenance, and
escrow accounts and a list of aggregate carrying values of the assets. It provided no details
concerning the makeup and nature of individual transactions included in the summary-level and
aggregate amounts. Because there was no audit trail to source documents, we could not
determine whether Ocwen accurately reported specific collection transactions for the first
24 months. For example, we could not trace the sales proceeds for 5 of the 13 assets in our
sample that sold prior to August 1996 to Ocwen’s monthly reports. Similarly, we could not trace
47 of the 75 rental and other receipt transactions selected from Carbon Mesa Management’s
receipt log to Ocwen’s monthly reports.

Because we questioned inaccuracies in its reports, Ocwen created a reconciliation of monthly
reports with the asset-specific cash activity reported in LSAMS for each month from inception
through September 30, 1997. That reconciliation included a calculation of estimated cash
payments made thorough LSAMS and disclosed a difference of $294,297 between the monthly
reports and the asset-specific cash activity reported in LSAMS. Because this reconciliation
disclosed a difference and additional work was needed to explain the discrepancy, we did not rely
on the reconciliation.

Ocwen’s counsel stated that criticizing Ocwen for failing to report auditable details was unfair
because the servicing agreement did not require it to submit monthly reports containing auditable
details. We disagree. Although the servicing agreement did not require reports containing
auditable records, Ocwen is required, under the servicing agreement, to maintain source
documents, records, and other reports that support various reports provided to the trustee, class
A certificateholder, and the FDIC.


OCWEN DID NOT PROVIDE ADEQUATE SUPPORTING DOCUMENTATION FOR
TRUST RECEIPTS, DISBURSEMENTS, AND ACCOUNTING ENTRIES

Ocwen did not provide adequate supporting documentation for trust receipts, disbursements, and
accounting entries to the OIG for transactions that we reviewed. Specifically, Ocwen did not
provide (1) a settlement statement for a sales transaction of $8,858,433, (2) an explanation for
posting $38,184 more than the amount shown on a certain settlement statement, and (3) any
record of a check for $8,150 received from a property manager. Ocwen also did not provide


                                                7
adequate supporting documentation for 42 of 200 sampled disbursement transactions totaling
$520,240 and for accounting entries totaling $397,380.


Inadequate Support for Trust Receipts

Although Ocwen generally provided support for asset sales proceeds that we reviewed, it did not
always maintain adequate support for rental and other receipts from trust assets. Ocwen provided
support for the sales proceeds on all but 1 of the 13 sold assets in our sample. In addition, we
could trace other receipts related to 9 of our 14 sampled assets from Carbon Mesa Management's
records to LSAMS for all but one transaction. However, we generally could not verify whether
property managers remitted correct amounts or Ocwen recorded all remittances.

For 11 of the 13 sampled assets that Ocwen disposed of during the audit period,5 Ocwen
accurately recorded sales proceeds totaling $13,390,480 based on the closing statements for each
sale. For one of the sold assets in the sample, Ocwen recorded sales proceeds of $1,619,874.
Although the amount recorded exceeded the sales proceeds shown on the closing statement by
$38,184, Ocwen could not provide an explanation for the difference. For the remaining sold asset
in the sample, Ocwen could not provide a closing statement for the sale. Ocwen recorded the
asset sale as $8,858,433; however, we could not verify the accuracy of that amount because the
closing statement was not available.

In addition, Ocwen accurately recorded rental and other receipts posted to the property
manager’s receipt log for eight of the nine assets in our sample where Carbon Mesa Management
remitted such receipts. Ocwen was unable to account for an $8,150 check that Carbon Mesa
Management received for a property, posted to its receipt log, and forwarded to Ocwen. The
check represented primarily security deposits. The Partnership’s servicing agreement with Ocwen
required that Ocwen deposit principal and interest payments, insurance proceeds, asset sales
proceeds, and any other receipts other than escrow receipts into its collection account. However,
Ocwen did not provide documentation to show that it deposited the $8,150 check. Accordingly,
we questioned $8,150 of unreported revenue.

Although we were able to determine that Ocwen, in general, recorded rental income and other
receipts remitted by Carbon Mesa Management, we were unable to determine the accuracy of the
amounts recorded by Carbon Mesa Management and Ocwen. Ocwen did not retain copies of
leases for sold assets. Accordingly, we could not verify required lease amounts due under the
leases except for the one unsold asset in our sample.




5
    One of the 14 sampled assets remained unsold at the time of our audit.


                                                              8
Inadequate Support for Trust Disbursements

Ocwen did not provide adequate supporting documentation for $520,240 of the $2,330,406 in
disbursements sampled. Ocwen did not provide either originals or copies of supporting
documentation for 42 of the 200 disbursement transactions sampled. Table 2 summarizes the
disbursements that Ocwen did not adequately support.

Table 2: Trust Disbursements Not Adequately Supported
                    Available Support                                           Number                 Amount
No check or invoice                                                               13                   $203,450
No adjusting journal entry or debit memorandum                                     5                     70,501
Original check only                                                                9                     70,553
Copy of check only                                                                12                    157,206
Copy of invoice only                                                               3                     18,530
Totals                                                                            42                   $520,240
Source: OIG analysis of Ocwen’s invoices, canceled checks, and other disbursements documentation.

For 18 of the disbursements totaling $273,951, Ocwen did not provide originals or copies of
canceled checks, invoices, adjusting journal entries, or debit memorandums. Ocwen responded
that 5 of the 18 transactions were suspense disbursements and voided entries that did not involve
cash disbursements from the Trust. However, Ocwen failed to provide adjusting journal entries,
debit memorandums, or other source documents to substantiate the nature of those transactions.
Instead, Ocwen supplied internally generated detailed transaction history summaries that did not
verify Ocwen’s statements. For 21 transactions totaling $227,759, Ocwen also provided originals
or copies of canceled checks but did not provide either originals or copies of invoices. For those
transactions, there was no assurance that the disbursements related to trust assets or amounts
disbursed were correct. For three of the transactions totaling $18,530, Ocwen provided copies of
invoices but did not provide either originals or copies of canceled checks, adjusting journal
entries, or debit memorandums. For those transactions, there was no assurance that Ocwen paid
the invoices. Because of Ocwen’s failure to provide supporting documentation, we had no
assurance that the disbursements were either allowable or accurate. Accordingly, we questioned
the entire $520,240 in unsupported disbursements.


Inadequate Support for Trust Accounting Entries

Ocwen did not provide adequate supporting documentation for accounting entries totaling
$397,380 that reduced trust receipts by $8,817 and increased trust disbursements by $388,563 in
LSAMS.6 For the adjusting entry related to receipts, Ocwen posted $224,626 in checks received
from Carbon Mesa Management to the Trust’s collection account and subsequently made an
adjusting entry that reduced those receipts by $8,817. However, Ocwen did not provide any

6
 These adjusting accounting entries are separate from the 200-item disbursement sample. However, these entries are
similar to the disbursements discussed earlier in that they have the same effect of increasing Trust disbursements and
decreasing Trust income.


                                                            9
support for that adjustment. Accordingly, Ocwen understated trust receipts by $8,817.
Ocwen also made nine accounting adjustments using transaction code FB-00 that increased the
trust disbursements in LSAMS by $605,570. Ocwen subsequently reversed six of the nine
adjustments totaling $217,007. However, Ocwen did not reverse the remaining three adjustments
totaling $388,563, which included a $100,000 adjustment posted in April 1995, a $248,563
adjustment posted in October 1996, and a $40,000 adjustment posted in November 1996.
Ocwen’s counsel stated that the FB-00 adjustments were noncash entries and were not accounted
for as cash disbursements in the monthly reports to the Trust. However, Ocwen included the
$248,563 and $40,000 amounts in the schedules attached to the October 1996 and November
1996 monthly collection account activity reports, respectively. In addition, Ocwen included the
$40,000 amount as a withdrawal on its November 1996 collection account activity report.
Because the $100,000 adjustment occurred in April 1995 during the initial 24-month period of
trust operations when no detailed disbursement information was available, we could not determine
whether Ocwen listed that amount in the monthly report for April 1995. Accordingly, at least two
of the three adjustments were included in Ocwen’s monthly collection account activity reports to
the Trust, which contradicts the assertion by Ocwen’s counsel that the FB-00 adjustments were
noncash entries. Because Ocwen did not provide supporting documentation or reversing entries
for the $388,563 in fee bill adjustments, we questioned the entire amount as unsupported
disbursements.

OCWEN MADE UNALLOWABLE DISBURSEMENTS FOR LEGAL AND
ASSET-SERVICING FEES

Ocwen made unallowable disbursements for legal services and asset-servicing fees totaling
$31,338. For one of the disbursements in our sample, Ocwen obtained the authorizations of asset
management and legal department officials to pay $6,166 of a legal fee bill. However, Ocwen
paid $9,517 billed by the law firm—$3,351 more than was approved. In addition, Ocwen
miscalculated its own asset-servicing fees, which resulted in an overpayment of $27,987. The
servicing agreement authorized Ocwen to pay itself 1 percent of the principal balance of each trust
asset that was less than $1 million and .5 percent of the principal balance of each trust asset that
was equal to or more than $1 million. Ocwen’s calculation of the servicing fees from the Trust’s
inception through October 31, 1997 showed that it overcharged the Trust by $27,987.
Accordingly, we questioned the $31,338 of legal and servicing fees.


OCWEN DID NOT COMPLY WITH TRUST REPORTING REQUIREMENTS

Ocwen did not comply with the servicing and deposit-trust agreements’ requirements to provide
(1) an accountant’s report and (2) partnership and servicer certificates to the trustee and the FDIC
on an annual basis. Ocwen also did not provide any of the four required annual accountant’s
reports. Although Ocwen provided three of the four required annual sets of partnership and
servicer certificates, they were incomplete and from 3 to 20 months late. Ocwen’s failure to
provide the annual accountant’s reports as well as complete, timely annual certificates prevented
the trustee and the FDIC from potentially identifying servicing weaknesses and taking timely


                                                10
action to correct them during the early years of trust operations.


Annual Accountant’s Reports Were Not Prepared

Ocwen did not provide the required annual accountant’s reports7 for 1994 through 1997.
Section 3.03 of the servicing agreement required Ocwen to annually hire an independent public
accountant to perform certain agreed-upon procedures relating to Ocwen’s compliance with
servicing requirements and provide an annual report to the trustee and the FDIC. The servicing
agreement required that the independent public accountant perform agreed-upon procedures
related to Ocwen’s servicing and management of the Trust’s mortgage loans and real estate,
respectively. The servicing agreement also required the accountant to comment on Ocwen’s
compliance with various requirements. Those requirements included initial contacts and
inspections of mortgaged property, business plans, escrow collections, withdrawals, maintenance
of insurance, deferred maintenance, environmental considerations, real estate titles, asset sales,
and modifications to the agreement.




                                                   [material redacted]




7
    The annual accountant’s report was also called the annual servicer compliance report.


                                                             11
                                                  [material redacted]




Partnership and Servicer Certificates Were Delinquent and Incomplete

Ocwen was late in providing the 1994, 1995, and 1997 partnership and servicer certificates to the
trustee and the FDIC. In addition, the exception/default sheets for the 1994 and 1995 certificates
were incomplete. The deposit-trust agreement required annual certificates for the Partnership and
servicer by March 13 of the succeeding year attesting that the Partnership and servicer had
fulfilled all material obligations in all material respects during the preceding calendar year.
Ocwen’s servicing agreement with the Partnership required Ocwen to prepare those annual
certificates. The certificates were to provide the trustee and the FDIC some assurance that the
Partnership and the servicer had fulfilled their material obligations under the agreements
throughout the prior year. Table 3 summarizes Ocwen’s late submissions of the certificates and
provides information on the exception/default sheets that should have accompanied each
certificate.

Table 3: Annual Partnership and Servicer Certificates
     Year         Certificate    Months Late            Exception/Default Sheets
      1994      Partnership            20        Blank
      1994      Servicer               20        Missing
      1995      Partnership             8        Blank
      1995      Servicer                8        Missing
                                          a
      1996      Partnership            18        Certificates not provided
                                          a
      1996      Servicer               18        Certificates not provided
      1997      Partnership             3        Disclosed three defaultsb
      1997      Servicer                3        Disclosed three exceptionsb
a
    This equals the number of months late as of September 30, 1998.
b
    This includes an exception/default regarding Ocwen not providing the 1994 and 1995 annual accountant’s reports.

Source: OIG analysis of Ocwen correspondence.



As table 3 shows, Ocwen submitted the certificates from 3 months to 20 months late. In addition,
Ocwen had not provided the 1996 certificates as of September 30, 1998. For 1994 and 1995,
Ocwen should have disclosed its failure to provide annual accountant’s reports on the
exception/default sheets. However, only the 1997 certificates disclosed that fact on the
exception/default sheets.




                                                            12
[material redacted]




        13
                                        [material redacted]




CONCLUSIONS AND RECOMMENDATIONS

Because Ocwen’s monthly collection account activity reports did not reconcile to other monthly
reports or its accounting system and source documents, we could not determine whether Ocwen
accurately reported trust receipts and disbursements to the trustee and the FDIC. In addition,
Ocwen did not adequately support trust receipts, disbursements, and accounting adjustments or
comply with reporting requirements. [material redacted] Accordingly, the OIG has no assurance
regarding the accuracy or allowability of the remaining $5.5 million in trust disbursements that we
did not review.

Based on the results of our audit, we recommend that the FDIC’s Assistant Director, Asset
Management, DRR, take the following actions:

     (1) Disallow $8,150 of unrecorded receipts that Ocwen received from Carbon Mesa
         Management (questioned cost of $4,157 representing the FDIC’s 51-percent share, all
         of which is unsupported).

     (2) Disallow $499,549 of Ocwen’s inadequately supported trust disbursements (questioned
         cost of $254,770 representing the FDIC’s 51-percent share, all of which is
         unsupported).


                                                14
     (3) Disallow $8,817 of Ocwen’s unsupported adjustments to trust receipts (questioned cost
         of $4,497 representing the FDIC’s 51-percent share, all of which is unsupported).

     (4) Disallow $388,563 of Ocwen’s unsupported adjustments to the trust disbursements
         (questioned cost of $198,167 representing the FDIC’s 51-percent share, all of which is
         unsupported).

     (5) Disallow $31,338 of Ocwen’s trust disbursements for legal and servicing fees
         (questioned cost of $15,982 representing the FDIC’s 51-percent share).


CORPORATION COMMENTS AND OIG EVALUATION

On January 27, 1999, the Assistant Director, Asset Management, DRR, provided a written
response to a draft of this report. The response agreed with the recommendations, with the
exception of one transaction included in recommendation 2, and provided the requisites for a
management decision on each of the five recommendations. The Assistant Director’s response is
presented as appendix II to this report.

A summary of the Assistant Director’s response to draft recommendation 2 and our analysis
follows. The response to recommendations 1, 3, 4, and 5 is not summarized because the actions
planned or completed are identical to those recommended.

Disallow $520,240 in inadequately supported disbursement transactions (questioned cost of
$265,322 representing the FDIC’s 51-percent share) (recommendation 2): The Assistant
Director generally agreed with the finding regarding Ocwen’s inability to provide auditable
documentation for its disbursement transactions. However, the Assistant Director disagreed with
one transaction for $20,691 that we included in the 42 questioned transactions totaling $520,240.
 We concur with the Assistant Director’s rationale for disagreeing. Accordingly, we have revised
recommendation 2 to delete the $20,691 transaction, which reduced the recommended
disallowance to $499,549 (questioned cost of $254,770 representing the FDIC’s 51-percent
share, all of which is unsupported).

Appendix III presents management’s proposed action on our recommendations and shows that
there is a management decision for each recommendation in this report. Based on the audit work,
the OIG will report questioned costs of $477,573 (of which $461,591 is unsupported) in its
Semiannual Report to the Congress.




                                               15
                                                                                     APPENDIX I


                 ENTITIES INVOLVED IN OWNING, MANAGING, AND
                            SERVICING TRUST ASSETS

A number of entities, including several affiliates, were involved in owning, managing, and
servicing the Trust. Wilmington Trust Company served as the trustee. Bondholders purchased
$30,909,030 in face value bonds secured by trust assets. Two classes of certificateholders
retained $29,636,996 of equity in those assets. 1994-S-CA Investors Limited Partnership held the
class A equity certificate representing a 49-percent interest in trust equity, and the RTC held the
class B equity certificate representing the remaining 51 percent of trust equity. The RTC hired
AEW Capital Management to represent its interests in the Trust.

The 1994-S-CA Investors Limited Partnership had a general partner, 1994-S-CA Management
Limited Partnership, and three limited partners—Ocwen, Carbon Mesa Investments, and an
individual investor. The 1994-S-CA Management Limited Partnership had two general partners,
Ocwen and Carbon Mesa Management, and three limited partners—Ocwen, Carbon Mesa
Advisors, and CCS Management. Altogether, Ocwen had an 85-percent ownership interest in the
1994-S-CA Investors Limited Partnership.

Under the servicing agreement, Ocwen also serviced the Trust’s loans and managed the Trust’s
real estate. 1994-S-CA Investors Limited Partnership and the Trust entered in a servicing
agreement with Ocwen and, as allowed by the servicing agreement, Ocwen and 1994-S-CA
Investors Limited Partnership signed subservicing agreements with Carbon Mesa Management
and CCS Management. Figure 1 shows the interrelationships among the various businesses
involved with the Trust as well as the percentage ownership in each preceding entity.




                                                16
Figure 1: Major Entities Involved in RTC Mortgage Trust 1994-S2



                                          RTC Mortgage Trust 1994-S2


                                           1994-S-CA Investors Limited            Wilmington Trust
                                                   Partnership                       Company
                                             Class A Certificateholder                Trustee

                                                                     Bondholders                                           Resolution Trust
                                                                  $30.9 Million Bonds                                         Corporation
                                                                                                                        Class B Certificateholder



       Ocwen Federal Bank FSB                                                                    Limited Partners         AEW Capital Mgt.
              Servicer                                                                                (99%)            RTC's Oversight Contractor

                                          1994-S-CA Management Limited
                                                 Partnership (1%)
                                                  General Partner



       Carbon Mesa Management   Ocwen Federal Bank, FSB (.5%)                       Individual           Ocwen Federal Bank, FSB
          CCS Management        Carbon Mesa Management (.5%)                          (3%)                       (85%)
             Sub-servicers             General Partners
                                                                                         Carbon Mesa Investments
                                                  Ocwen Federal Bank, FSB (29.5%)                (10%)
             Property                              Carbon Mesa Advisors (49.5%)
             Managers                                CCS Management (20%)
                                                         Limited Partners



Source: Ocwen organization chart and 1994-S-CA Investors Limited Partnership annual financial statements and
        partnership agreements.




                                                                    17
APPENDIX II                                                                 APPENDIX II

                                      COPORATION COMMENTS

FDIC
Federal Deposit Insurance Corporation
Washington D.C. 20429                                Division of Resolutions and Receiverships

DATE:                          January 27, 1999

MEMORANDUM TO:                 Sharon M. Smith
                               Director, Field Operations
                               Office of the Inspector General



FROM:                          Douglas G. Stinchcum
                               Assistant Director
                               Division of Resolutions and Receiverships

SUBJECT:                       OLG Draft Report: Audit of Ocwen Federal Bank’s Servicing of RTC
                               Mortgage Trust 1994-S2


On November 4, 1998 the Office of the Inspector General (OIG) issued its draft report on the results
of an audit of RTC Mortgage Trust 1994-S2, in which the FDIC is the Class B Certificateholder.
As noted in your memorandum forwarding the report, the OIG selected this Trust for review in
response to DRR’s request for an audit. FDIC-DRR requested this audit because of rising concern
for numerous reporting discrepancies, management abilities and systems, and the repeated inability
of the Servicer to provide timely or accurate reports.

The following are Management’s responses to the specific recommendations of the audit report.


1. Disallow $8,150 in unrecorded receipts that Ocwen received from Carbon Mesa Management
   (questioned costs of $4,157 representing the FDIC’s 51% interest).

Management concurs with the finding. Ocwen has indicated in recent conversations that it is unable
to locate any evidence that the check in question was negotiated by Ocwen or credited to the Trust’s
accounts.


2. Disallow $520,240 in inadequately supported disbursement transactions (questioned costs of
$265,332 representing the FDIC’s 51% interest)

Management generally concurs with the OIG’s finding regarding Ocwen’s inability to provide
auditable documentation for its disbursement transactions. One exception is noted at the end of
APPENDIX II                                                                 APPENDIX II


RTC Mortgage Trust 1994-S2 Audit Report Response
Page 2



this section. Ocwen could not adequately support both sides (invoice and check) by providing
originals or copies of checks and invoices for many transactions. Without a proper invoice, OIG/DRR
can have no assurance that the work was reasonable, proper or performed on Trust assets. Without
a proper cancelled check or wire confirmation, OIG/DRR can have no assurance that a proper
expense was actually paid.

For many of these disallowed/questioned costs, Ocwen was able to provide partial documentation,
such as a cancelled check made out to a Tax Collector. But Ocwen failed to produce satisfactory
evidence that the amounts paid were proper and that the Trust owned the subject properties at the
time the taxes were paid. Similar findings were revealed in analyses of the Trust’s vendor payments
to law firms and property managers and receivers.

Management disagrees with the OIG’s findings with regard to one of the entries. OIG selected as
a transaction what was actually only a comment on an asset servicing screen. For asset #2263614 an
entry dated 9/7/94 has the comment “...sent $20,691.15 R/E tax bill to CMA for authorization…” The
OIG interpreted this as an expense transaction when it was an asset manager’s comment regarding
a tax bill. DRR will therefore not disallow the $20,691 (FDIC’s 51% interest is $10,552).



3. Disallow $8,817 in unsupported adjustments to Trust receipts (questioned costs of $4,497
   representing the FDIC’s 51% interest),

Management concurs with the OIG’s related findings regarding the Servicer’s failure to adequately
document or support certain adjustments to the Trust’s Loan Servicing and Accounting Management
System (LSAMS) general ledger system. Ocwen has conceded that it does not have supporting
documentation for these adjustments.



4. Disallow $388,563 in unsupported adjustments to Trust disbursements (questioned costs of
   $198,167 representing the FDIC’s 51% interest).

Management concurs with the OIG’s findings.

Ocwen cannot identify any offsetting credits for three “FB-00” adjustments, which had the effect of
increasing Trust expenses by $100,000 in April 1995, by $248,563 in October 1996 and by $40,000
in November 1996.



                                                19
APPENDIX II                                                                    APPENDIX II


RTC Mortgage Trust 1994-52 Audit Report Response
Page 3

5. Disallow $31,338 in unallowable legal and servicing fee expenses (questioned costs of $15,982
representing the FDIC’s 51% interest).

Management concurs with the OIG’s findings, which consists of two parts:

(1) Ocwen’s asset management and legal staffs approved partial payment of a $9,517 legal services
    bill, authorizing payment of $6,166 of the billed amount. Ocwen subsequently paid the full
    amount, which was $3,351, more than the approved amount.

(2) Ocwen appears to have miscalculated the asset servicing fees that it paid to itself under the terms
    of the Servicing Agreement. Ocwen’ s servicing fees were re-calculated by Ocwen in response
    to OIG’s request for support for the fees paid to Ocwen since the inception of the Trust
    transaction. Ocwen’ s own recalculation from inception through October 31, 1997 indicates that
    Ocwen was paid $27,987 more than should have been allowed under the definition found in the
    Servicing Agreement.

The OIG’s audit report further identified problem areas for which no specific cost was identified,
including Ocwen’s failure to produce required reports in a timely and complete manner, and its failure
to produce annual Partnership and Servicer Certifications as required under the terms of the Deposit
Trust Agreement and the Servicing Agreement. Had these been prepared in a timely manner,
management believes that many of the issues raised in the subject report could have been fully
addressed before the situation became as difficult as it has become. However, as there are no assets
remaining in the partnership, management need take no action on these issues.

Management anticipates resolving the disallowed cost issues raised in the OIG’s audit report through
the following procedure:

(1) FDIC will issue, within ninety days, a demand letter to Ocwen that requests reimbursement for
    the FDIC’s 51% interest in the disallowed costs.

(2) FDIC will notify Wilmington Trust, the owner trustee for the 1994-S2 Trust, of the findings of
    the OIG report and management’s action to recover the disallowed costs. The FDIC will request
    Wilmington Trust’s cooperation in assuring that the Deposit Trust Agreement remains intact and
    does not terminate, and that no further distribution of its remaining assets be permitted until the
    disallowed cost issue is resolved.

cc:    Gail Patelunas, DRR         Nick Ravichandran, OIG               Bruce Klink, AEW
       Elliot Pinta, Legal         Hank Abbot, DRR
       Dean Eisenberg, DRR         Jocelyn Spector, DRR




                                                  20
                                                                                                                                                 APPENDIX III


                                              MANAGEMENT RESPONSES TO RECOMMENDATIONS
The Inspector General Act of 1978, as amended, requires the OIG to report on the status of management decisions on its recommendations in its semiannual reports to
the Congress. To consider the FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are necessary. First, the
response must describe for each recommendation

     •    the specific corrective actions already taken, if applicable;

     •    corrective actions to be taken together with the expected completion dates for their implementation; and

     •    documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any disagreement.
In the case of questioned costs, the amount that the FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming
completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The information for
management decisions is based on management's written response to our report.

                                                                                           Expected        Documentation That                      Management
   Rec.                                                                                   Completion        Will Confirm Final      Monetary        Decision:
  Number                   Corrective Action: Taken or Planned / Status                      Date                 Action            Benefits        Yes or No
      1           The Assistant Director, Asset Management, DRR, agreed with the           04/27/99       Demand letter and           $4,157             Yes
                  recommendation and stated that the Corporation would issue a                            settlement agreement.     disallowed
                  demand letter to Ocwen for the FDIC’s 51-percent share of the                                                        cost
                  disallowed costs. He added that the Corporation would request the
                  trustee to not make any further distribution of the Trust’s remaining
                  assets until the disallowed cost issue is resolved.
      2           The Assistant Director, Asset Management, DRR, agreed with the           04/27/99       Demand letter and         $254,770             Yes
                  recommendation, as amended, and stated that the Corporation                             settlement agreement.     disallowed
                  would issue a demand letter to Ocwen for the FDIC’s 51-percent                                                       cost
                  share of the disallowed costs. He added that the Corporation would
                  request the trustee to not make any further distribution of the
                  Trust’s remaining assets until the disallowed cost issue is resolved.




                                                                                     21
                                                                                  Expected     Documentation That                  Management
 Rec.                                                                            Completion     Will Confirm Final    Monetary      Decision:
Number            Corrective Action: Taken or Planned / Status                      Date              Action          Benefits      Yes or No
  3      The Assistant Director, Asset Management, DRR, agreed with the           04/27/99    Demand letter and         $4,497        Yes
         recommendation and stated that the Corporation would issue a                         settlement agreement.   disallowed
         demand letter to Ocwen for the FDIC’s 51-percent share of the                                                   cost
         disallowed costs. He added that the Corporation would request the
         trustee to not make any further distribution of the Trust’s remaining
         assets until the disallowed cost issue is resolved.
  4      The Assistant Director, Asset Management, DRR, agreed with the           04/27/99    Demand letter and       $198,167        Yes
         recommendation and stated that the Corporation would issue a                         settlement agreement.   disallowed
         demand letter to Ocwen for the FDIC’s 51-percent share of the                                                   cost
         disallowed costs. He added that the Corporation would request the
         trustee to not make any further distribution of the Trust’s remaining
         assets until the disallowed cost issue is resolved.
  5      The Assistant Director, Asset Management, DRR, agreed with the           04/27/99    Demand letter and        $15,982        Yes
         recommendation and stated that the Corporation would issue a                         settlement agreement.   disallowed
         demand letter to Ocwen for the FDIC’s 51-percent share of the                                                   cost
         disallowed costs. He added that the Corporation would request the
         trustee to not make any further distribution of the Trust’s remaining
         assets until the disallowed cost issue is resolved.




                                                                            22
